   DEPARTMENT OF HEALTH & HUMAN SERVICES                              OFFICE OF INSPECTOR GENERAL

                                                                      Office of Audit Services, Region III
                                                                      Public Ledger Building, Suite 316
                                                                      150 S. Independence Mall West
                                                                      Philadelphia, PA 19106-3499



August 12, 2011

Report Number: A-03-11-00004

Mr. Patrick Kiley
President
Highmark Medicare Services
1800 Center Street
Camp Hill, PA 17011

Dear Mr. Kiley:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments Exceeding Charges By $500
to $1,000 for Outpatient Services Processed by Highmark Medicare Services in Jurisdiction 12
for the Period January 1, 2006, through June 30, 2009. We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(215) 861-4470, or contact Bernard J. Siegel, Audit Manager, at (215) 861-4484 or through
email at Bernard.Siegel@oig.hhs.gov. Please refer to report number A-03-11-00004 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Patrick Kiley

cc: Mr. David Vaughn, Vice President, Operations
    Ms. Laura Minter, Program Manager, MAC Jurisdiction 12
    Mr. E. James Bylotas, Director, Quality & Performance Management


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF MEDICARE PAYMENTS
       EXCEEDING CHARGES
      BY $500 TO $1,000 FOR
      OUTPATIENT SERVICES
PROCESSED BY HIGHMARK MEDICARE
   SERVICES IN JURISDICTION 12
 FOR THE PERIOD JANUARY 1, 2006,
     THROUGH JUNE 30, 2009


                        Daniel R. Levinson
                         Inspector General

                           August 2011
                          A-03-11-00004
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted for outpatient
services. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.

Effective October 2007, Highmark Medicare Services (Highmark) became the Medicare
contractor for Jurisdiction 12 in five States. During our audit period (January 2006 through June
2009), approximately 242 million line items for outpatient services were processed in
Jurisdiction 12, of which 748 line items had (1) a Medicare line payment amount that exceeded
the line billed charge amount by between $500 and $1,000 and (2) 3 or more units of service.
(A single Medicare claim from a provider typically includes more than one line item. In this
audit, we did not review entire claims; rather, we reviewed specific line items within the claims
that met these two criteria. Because the terms “payments” and “charges” are generally applied to
claims, we will use “line payment amounts” and “line billed charges.”) We reviewed only 739
of these line items because 6 providers associated with 9 line items were either no longer in
business or included in other reviews.

OBJECTIVE

Our objective was to determine whether Medicare payments in excess of charges by $500 to
$1,000 that Highmark made to providers for outpatient services were correct.

SUMMARY OF FINDINGS

Of the 739 selected line items for which Highmark made Medicare payments to providers for
outpatient services during our audit period, 280 were correct. Providers refunded overpayments
on 41 line items totaling $31,179 prior to our fieldwork. The remaining 418 line items were


                                                i
incorrect and included overpayments totaling $531,797 that the providers had not refunded by
the beginning of our audit.

Of the 418 incorrect line items:

   •    Providers reported incorrect units of service on 343 line items, resulting in overpayments
        totaling $435,099.

   •    Providers did not provide supporting documentation for 26 line items, resulting in
        overpayments totaling $31,005.

   •    Providers billed for unallowable services on nine line items, resulting in overpayments
        totaling $19,257.

   •    Providers billed separately for services on 18 line items for which payment was packaged
        in the payment for the primary service, resulting in overpayments totaling $18,722.

   •    Providers reported a combination of incorrect units of service and incorrect HCPCS
        codes on nine line items, resulting in overpayments totaling $11,600.

   •    Providers used incorrect HCPCS codes on 11 line items, resulting in overpayments
        totaling $10,766.

   •    One provider billed for the unlabeled use of a drug/biological on one line item, resulting
        in an overpayment totaling $3,657.

   •    Highmark incorrectly calculated the payment for one line item that resulted in an
        overpayment of $1,691.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Highmark made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

RECOMMENDATIONS

We recommend that Highmark:

    •   recover the $531,797 in identified overpayments.

    •   implement system edits that identify line item payments that exceed billed charges by a
        prescribed amount, and

    •   use the results of this audit in its provider education activities.




                                                   ii
HIGHMARK MEDICARE SERVICES COMMENTS

In written comments on our draft report, Highmark generally concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take.
Highmark’s comments are included in their entirety as the Appendix.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION ...................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Medicare Contractors............................................................................ 1
              Claims for Outpatient Services ............................................................................. 1
              Highmark Medicare Services ................................................................................ 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2
               Objective ............................................................................................................... 2
               Scope ................................................................................................ 2
               Methodology ......................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

          FEDERAL REQUIREMENTS ............................................................................... 4

          OVERPAYMENTS FOR SELECTED LINE ITEMS ..................................................... 4
               Incorrect Number of Units of Service ................................................................... 4
               Unsupported Services .......................................................................................... 5
               Services Not Allowable for Medicare Reimbursement ........................................ 5
               Payment for Packaged Services ............................................................................ 5
               Combination of Incorrect Number of Units of Service and
                 Incorrect Healthcare Common Procedure Coding System Codes .................... 6
               Incorrect Healthcare Common Procedure Coding System Codes ...................... 6
               Unlabeled Use of a Drug/Biological ..................................................................... 6
               Incorrect Medicare Reimbursement ...................................................................... 7

          CAUSES OF INCORRECT MEDICARE PAYMENTS ................................................. 7

          RECOMMENDATIONS .................................................................................................. 8

          HIGHMARK MEDICARE SERVICES COMMENTS ................................................... 8

APPENDIX

          HIGHMARK MEDICARE SERVICES COMMENTS




                                                                    iv
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. Part B of the Medicare program helps cover medically necessary services such as
doctors’ services, outpatient care, home health services, and other medical services. Part B also
covers some preventive services. The Centers for Medicare & Medicaid Services (CMS)
administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
Part B claims submitted for outpatient services. 1 The Medicare contractors’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that Medicare contractors must maintain
adequate internal controls over automatic data processing systems to prevent increased program
costs and erroneous or delayed payments. To process providers’ outpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF). The CWF can detect certain improper payments during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 2 In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
P.L. No. 108-173, required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare
administrative contractors (MAC) between October 2005 and October 2011. Most, but not all, of the MACs are
fully operational; for jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers
continue to process claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or
MAC, whichever is applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                          1
Highmark Medicare Services

Effective October 2007, Highmark Medicare Services (Highmark) became the Medicare
administrative contractor for Jurisdiction 12 in five States: Delaware, the District of Columbia,
Maryland, New Jersey, and Pennsylvania. 3 From January 2006 through June 2009,
approximately 242 million line items for outpatient services were processed in Jurisdiction 12.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare payments in excess of charges by $500 to
$1,000 that Highmark made to providers for outpatient services were correct.

Scope

Of the approximately 242 million line items for outpatient services that Highmark processed
during the period January 2006 through June 2009, 748 line items had (1) a Medicare line
payment amount that exceeded the line billed charge amount between $500 and $1,000 and
(2) 3 or more units of service. 4 We reviewed only 739 of these line items because 6 providers
associated with 9 line items were either no longer in business or included in other reviews.

We limited our review of Highmark’s internal controls to those that were applicable to the
selected payments because our objective did not require an understanding of all internal controls
over the submission and processing of claims. Our review allowed us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

This report includes all items with payments for line items that exceeded billed charges by $500
to $1,000. We will report the results of our review of all items with payments for line items that
exceeded billed charges by at least $1,000 separately in report number A-03-10-00004.

Our fieldwork included contacting Highmark in Camp Hill, Pennsylvania, and the 125 providers
in Jurisdiction 12 that received the selected Medicare payments.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal laws, regulations, and guidance;

3
  Before October 24, 2007, providers processed Medicare outpatient claims through separate fiscal intermediaries.
On October 24, 2007, Highmark became the Medicare administrative contractor for these States and is therefore
responsible for collecting any overpayments and resolving the issues related to this audit.
4
  A single Medicare claim from a provider typically includes more than one line item. In this audit, we did not
review entire claims; rather we reviewed specific line items within the claims that met these two criteria. Because
the terms “payments” and “charges” are generally applied to claims, we will use “line payment amounts” and “line
billed charges.”


                                                         2
    •   used CMS’s National Claims History file to identify outpatient line items in which
        (1) Medicare line payment amounts exceeded the line billed charge amounts between
        $500 and $1,000 and (2) the line item had 3 or more units of service; 5

    •   identified 739 line items, totaling $1,232,239, that Medicare paid to 125 providers;

    •   contacted the 125 providers that received Medicare payments associated with the selected
        line items to determine whether the information conveyed in the selected line items was
        correct and, if not, why the information was incorrect;

    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly;

    •   coordinated the calculation of overpayments with Highmark; and

    •   discussed the results of our review with Highmark on March 1, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

Of the 739 selected line items for which Highmark made Medicare payments to providers for
outpatient services during our audit period, 280 were correct. Providers refunded overpayments
on 41 line items totaling $31,179 prior to our fieldwork. The remaining 418 line items were
incorrect and included overpayments totaling $531,797 that the providers had not refunded by
the beginning of our audit.

Of the 418 incorrect line items:

    •   Providers reported incorrect units of service on 343 line items, resulting in overpayments
        totaling $435,099.

    •   Providers did not provide supporting documentation for 26 line items, resulting in
        overpayments totaling $31,005.

    •   Providers billed for unallowable services on nine line items, resulting in overpayments
        totaling $19,257.

    •   Providers billed separately for services on 18 line items for which payment was packaged
        in the payment for the primary service, resulting in overpayments totaling $18,722.

5
 For this audit we reviewed those line items that met the stated parameters. We applied those parameters to
unadjusted line items. In some cases, subsequent payment adjustments reduced the difference between payments
and charges to less than $500.


                                                       3
   •   Providers reported a combination of incorrect units of service and incorrect HCPCS
       codes on nine line items, resulting in overpayments totaling $11,600.

   •   Providers used incorrect HCPCS codes on 11 line items, resulting in overpayments
       totaling $10,766.

   •   One provider billed for the unlabeled use of a drug/biological on one line item, resulting
       in an overpayment totaling $3,657.

   •   Highmark incorrectly calculated the payment for one line item that resulted in an
       overpayment of $1,691.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Highmark made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
Chapter 25, section 75.5, of the Manual states: “when HCPCS codes are required for services,
the units are equal to the number of times the procedure/service being reported was performed.”
If the provider is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here
HCPCS is required, units are entered in multiples of the units shown in the HCPCS narrative
description. For example, if the description for the code is 50 mg, and 200 mg are provided,
units are shown as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

OVERPAYMENTS FOR SELECTED LINE ITEMS

Incorrect Number of Units of Service

Providers reported incorrect units of service on 343 line items, resulting in overpayments totaling
$435,099. Primarily, these overpayments occurred for two reasons:




                                                 4
    •    Fifty providers billed Medicare on 285 line items with incorrect units involving
         42 different drugs, biologicals, 6 and blood products. Rather than billing between 1 and
         350 service units, providers billed between 3 and 10,000 service units. These errors
         occurred because of human error or because the provider’s chargemaster 7 was incorrect.
         As a result of these errors, Highmark paid the 50 providers a total of $475,556 when it
         should have paid $112,763, an overpayment of $362,793.

    •    Twelve providers billed Medicare for 23 line items with an incorrect number of surgical
         procedures performed. Rather than billing for the number of surgical procedures
         performed, providers either billed the wrong number of procedures or billed for the units
         of time (e.g., minutes, quarter hours, and hours) spent in the surgical suite. For each of
         the 23 cases, the provider performed from 1 to 9 surgical procedures but billed for
         between 3 and 30 services. As a result of these errors, Highmark paid the provider a total
         of $77,594 when it should have paid $37,049, an overpayment of $40,545.

Unsupported Services

Providers billed Medicare for 26 line items for which the providers did not provide supporting
documentation. The providers agreed to cancel the claims associated with these line items or file
adjusted claims to refund the combined $31,005 in overpayments that they received.

Services Not Allowable for Medicare Reimbursement

Providers incorrectly billed Medicare for nine line items for which the services provided were
not allowable for Medicare reimbursement, resulting in overpayments totaling $19,257. For
example, four providers billed Medicare for six line items for dental procedures that were not
covered outpatient services. According to the Medicare Benefit Policy Manual (Pub. No.
100-02, chapter 15, section 150) “items and services in connection with the care, treatment,
filing, removal, or replacement of teeth or structures directly supporting the teeth are not
covered” by Medicare, unless the dental procedure is an integral part of another procedure
covered by Medicare. None of the six dental services billed was an integral part of another
covered procedure. As a result of these errors, Highmark incorrectly paid the provider $13,982.

Payment for Packaged Services

Eight providers billed Medicare on 18 line items for services that were not separately payable by
Medicare. These services were billed as separately payable drugs rather than ordinary pharmacy
drugs that are packaged in the payment for the primary procedure. These errors resulted in
overpayments totaling $18,722. For example, 3 providers billed Medicare for 10 line items for
the lipid formulation of doxorubicin hydrochloride (HCPCS code J9001) rather than the non-
lipid formulation of doxorubicin hydrochloride (HCPCS code J9000), the drug actually
administered. During the dates of service that the provider administered this drug, Medicare

6
  Biologicals are substances made from a living organism or its products that are used to prevent, diagnose, treat or
relieve symptoms of a disease.
7
  A provider’s chargemaster contains data on every chargeable item or procedure that the provider offers, including
a factor that converts a drug’s dosage to the number of units to bill.


                                                          5
included the non-lipid formulation in the payment for related chemotherapy and did not provide
for separate reimbursement under the outpatient prospective payment system. As a result of
these errors, Highmark incorrectly paid the provider $11,365.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect units of service claimed and incorrect HCPCS
codes on nine line items. These errors resulted in overpayments totaling $11,600. The following
examples illustrate the combination of incorrect number of units of service claimed and incorrect
HCPCS codes used:

    •   One provider billed Medicare for 10 units of HCPCS code J9001 rather than for 8 units of
        HCPCS code J9000, the drug actually administered. Similar errors occurred on a total of
        two line items that this provider submitted. As a result of these errors, Highmark paid the
        provider $6,873 when it should have paid $78, an overpayment of $6,795.

    •   Another provider billed Medicare for administering six units for an injection of
        Tacrolimus (HCPCS code J7525); however, the provider should have billed for three
        units of oral Tacrolimus (HCPCS code J7507). Similar errors occurred on a total of five
        line items that this provider submitted. As a result, Highmark paid the provider a total of
        $3,650 when it should have paid $52, an overpayment of $3,598.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used incorrect HCPCS codes for 11 line items, resulting in overpayments totaling
$10,766. For example, one provider billed Medicare for nine line items for HCPCS code J9001
rather than HCPCS code J9000, the drug actually administered. 8 As a result, Highmark paid the
provider a total of $8,626 when it should have paid $135, an overpayment of $8,491.

Unlabeled Use of a Drug/Biological

One provider billed Medicare for the unlabeled use of the biological Retavase for 1 line item for
6 units, resulting in overpayments totaling $3,657. Retavase is approved by the Food and Drug
Administration (FDA) to treat cardiac conditions using a single-use dose (18.1 mg). However,
the provider split a single labeled dose into 25 separate “mini” doses, and used each mini dose as
a thrombolytic 9 agent to clean dialysis patient catheters. The provider then billed Medicare for a
full single-use dose of Retavase for each mini dose administered. According to the Medicare
Benefit Policy Manual (Pub. No. 100-02, chapter 15, section 50.4.2):

        An unlabeled use of a drug is a use that is not included as an indication on the
        drug’s label as approved by the FDA. FDA approved drugs used for indications

8
 Although Medicare did not pay separately for HCPCS code J9000 administered during calendar years 2006, 2008,
and 2009, Medicare did pay for HCPCS code J9000 administered during calendar year 2007.
9
 The Medicare Claims Processing Manual, Pub.No. 100-4, chapter 8, section 60.2.1.1, identifies “thrombolytics:
used to declot central venous catheters” as a separately billable drug used to treat a patient’s renal condition.


                                                         6
        other than what is indicated on the official label may be covered under Medicare
        if the carrier determines the use to be medically accepted, taking into
        consideration the major drug compendia, authoritative medical literature and/or
        accepted standards of medical practice.… These decisions are made by the
        contractor on a case-by-case basis. [Emphasis added.]

Providers must identify on their claims that the billed service was for the unlabeled use of a drug
or biological. 10 However, the provider submitted this line item as if six single-use doses were
administered for the labeled use. Consequently, Highmark did not know that the one line item
was for an unlabeled use that required a case-by-case payment determination and incorrectly
paid the provider $3,657.

Incorrect Medicare Reimbursement

One provider correctly billed Medicare for one line item for eight units for intermittent peritoneal
dialysis treatments using the appropriate revenue code. 11 According to the provider, Highmark
told the provider that the Medicare payment system appeared to have paid an incorrect amount.
Highmark paid the provider $2,537 when it should have paid $846, an overpayment of $1,691.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Highmark made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place to prevent or detect the overpayments. In
effect, CMS relied on providers to notify the Medicare contractors of incorrect payments and on
beneficiaries to review their Medicare Summary Notice and disclose any overpayments. 12

On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially incorrect Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires Medicare contractors to determine the legitimacy of the claims. However, this edit did
not detect the errors that we found because the edit considers only the amount of the payment,
suspends only those payments that exceed the threshold, and does not flag payments that exceed
charges.


10
  Providers should indicate the unlabeled use of a drug or biological in the comments section of the claim. In
addition, beginning July 11, 2008, Highmark required providers to use modifier “KX” on each claim line billed for
an unlabeled use of a drug or biological to verify that the documentation requirements of Pub. No. 100-02,
chapter 15, section 50.4.2 have been met. (See Approved Drugs and Biologicals; Includes Cancer
Chemotherapeutic Agents (Highmark Billing & Coding Article A47797, July 11, 2008, revised April 13, 2011)).
11
  Revenue codes indicate the general category of service provided and may affect the processing and payment of the
claim.
12
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                         7
RECOMMENDATIONS

We recommend that Highmark:

    •   recover the $531,797 in identified overpayments,

    •   implement system edits that identify line item payments that exceed billed charges by a
        prescribed amount, and

    •   use the results of this audit in its provider education activities.

HIGHMARK MEDICARE SERVICES COMMENTS

In written comments on our draft report, Highmark generally concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take.
Highmark’s comments are included in their entirety as the Appendix.




                                                   8
APPENDIX
                                                                                          Page 1 of 2


            APPENDIX: HIGHMARK MEDICARE SERVICES COMMENTS




July 22, 2010

RE: Report Number A-03-11-00004

Mr. Stephen Virbitsky
Regional Inspector General
Office of Audit Service, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499


Dear Mr. Virbitsky,

This letter is in response to your letter dated June 28, 2011, regarding the draft report for audit
number A-03-11-00004, Review of Medicare Payments Exceeding Charges By $500 to $1,000
for Outpatient Services Processed by Highmark Medicare Services in Jurisdiction 12 for the
Period January 1, 2006 Through June 30, 2009.

HMS was the legacy contractor for Pennsylvania and Maryland/District of Columbia (Part A)
during the scope of this audit. HMS began processing claims associated with Delaware, the DC
metropolitan area, Maryland (Part B) and New Jersey in 2008 as part of the Medicare
Administrative Contractor Jurisdiction 12 transition.

Recommendation that Highmark recover the $531,797 in identified overpayments:

Response: Highmark Medicare Services (HMS) has been working the overpayments in
accordance with the applicable IOM and will coordinate recoveries outside of that guidance with
the J12 COTR.

Finding: Highmark incorrectly calculated the payment for one line item that result in an
overpayment of $1,691.

HMS reviewed the claims associated with the finding. We concur with this statement and will
recover the overpayment per established guidelines.

We concur with the OIG’s characterization that at the time HMS made the incorrect payments
neither the Fiscal Intermediary Standard System not CWF had sufficient editing in place to
prevent or detect the overpayment.
                                                                                        Page 2 of 2


Recommendation that Highmark implement system edits that identify line item payments that
exceed billed charges by a prescribed amount:

Response: HMS is conducting analysis of the issue and will be reviewing corrective actions
during our next scheduled MIP meeting. Any identified vulnerabilities will be pursued following
the prescribed progressive corrective action process.

Recommendation that Highmark use the results of this audit in its provider education
activities:

Response: HMS will use the findings listed to develop targeted provider education
opportunities.

If there are any other questions or concerns, please do not hesitate to contact me at (717) 302-
4410 or Michele Daley-Ryan at (717) 713-0252.


Sincerely,




/E. James Bylotas/
Director, Quality and Performance Management
